Nos. 19-267, 19-348
INTHE

~upreme ([ourt of tbe Wniteb ~tates
OUR LADY OF GUADALUPE SCHOOL,

Petitioner,

v.
AGNES DEIRDRE MORRISSEY-BERRU,

Respondent.
ST. JAMES SCHOOL,

Petitioner,
V.

DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF KRISTEN BIEL,

Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and

that on this 10th day of February, 2020, I caused three copies of the Brief of Amici

Curiae Church of God in Christ, Inc. and Union of Orthodox Jewish Congregations of
America in Support of Petitioners to be served by third-party commercial carrier on the
counsel identified below, and caused an electronic version to be transmitted to the
counsel identified below, pursuant to Rule 29.5 of the Rules of this Court. All parties
required to be served have been served.

Jennifer A Lipski

Eric C. Rassbach

JMLLAw
5855 Topanga Canyon Blvd
Suite 300
Woodland Hills, CA 91367
(818) 610-8800
jennife:r@.:jmllaw.com

THE BECKET FUND FOR RELIGIOUS

LIBERTY

1200 New Hampshire Ave, NW
Suite 700
Washington, DC 20036
(202) 955-0095
erassbach@becketlaw.org

Counsel for Respondents

Counsel for Petitioners

2

